                                              OFFICE OF THE
                                              CHIEF FINANCIAL OFFICER

Office of Inspector General—Office of Audit




                                              MANAGEMENT ADVISORY COMMENTS
                                              IDENTIFIED IN AN AUDIT OF THE
                                              CONSOLIDATED FINANCIAL STATEMENTS
                                              FOR THE YEAR ENDED SEPTEMBER 30, 2007




                                              This report was prepared by KPMG, under contract to the U.S.
                                              Department of Labor, Office of Inspector General, and by acceptance, it
                                              becomes a report of the Office of Inspector General.




                                                                                  Assistant Inspector General
                                                                                  U.S. Department of Labor




                                                                               Date Issued: March 20, 2008
                                                                           Report Number: 22-08-006-13-001
                                                              Management Advisory Comments Identified in an
                                                               Audit of the Consolidated Financial Statements
                                                                       For the Year Ended September 30, 2007


Table of Contents
                                                                                                                    PAGE

EXECUTIVE SUMMARY ................................................................................................ 3
 1.   Inadequate Evidence of Timing of Journal Voucher Review ....................... 7
 2.   Certain Improvements Needed in Financial Reporting................................. 8
 3.   Closing Balances Reported on the FMS-6655 are not Reconciled to the
      General Ledger 1010...................................................................................... 11
 4.   Improvements Needed in the Statement of Differences (FMS-6652)
      Reconciliation Process for Agency Location Code (ALC) 16012012 ........ 13
 5.   Improper Source Documents for Deposits Recorded in the General
      Ledger and Subsequently Reported to Treasury and Collections Cut-off 15
 6.   Weaknesses Noted over Interest Calculations ........................................... 17
 7.   Improvements Needed in Grant Controls .................................................... 20
 8.   Grant Closeouts ............................................................................................. 24
 9.   Monitoring of Audit Completion in Accordance with the Single Audit Act
      Amendments of 1996 and OMB Circular No. A-133 .................................... 27
 10.  Training of Property Officers ........................................................................ 30
 11.  Internal-Use Software .................................................................................... 31
 12.  Improper Source for Recording of Costs on National Training Center
      Contracts ........................................................................................................ 32
 13.  Inaccurate Employee Accrued Leave Amounts .......................................... 34
 14.  Lack of Adequate Monitoring of Child Agency Financial Data .................. 36
 15.  Unemployment Compensation Advisory Council Not Established........... 38
 16.  Claimant Receiving Improper Benefit Payments ........................................ 39
 17.  Error Noted in FECA Compensation Processing ........................................ 41
APPENDIX A ................................................................................................................ 44
 Acronyms and Abbreviations.................................................................................. 44




Prepared by KPMG LLP                                                                                                        1
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007




2                                                                      Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007



Executive Summary
KPMG LLP, under contract to the United States Department of Labor (DOL or the
Department), Office of Inspector General (OIG), audited the DOL’s consolidated
financial statements as of and for the year ended September 30, 2007. The audit was
conducted in accordance with auditing standards generally accepted in the United
States of America; Government Auditing Standards, issued by the Comptroller General
of the United States; and Office of Management and Budget (OMB) Bulletin No. 07-04,
Audit Requirements for Federal Financial Statements. The objective of the audit was to
express an opinion on the fair presentation of DOL’s consolidated financial statements.
Additionally, the objectives include expressing an opinion on DOL’s compliance with
requirements of the Federal Financial Management Improvement Act (FFMIA) of 1996
(Public Law 104-278), based on an examination.

In planning and performing the audit, DOL’s internal control over financial reporting was
considered in order to determine auditing procedures for the purpose of expressing an
opinion on the consolidated financial statements. The objective of the audit was not to
provide assurance on DOL’s internal control over financial reporting; accordingly, such
an opinion was not provided. However, certain matters were noted involving internal
control and its operation that were considered to be significant deficiencies, and certain
other matters were noted that were considered to be management advisory comments.
This report was prepared to provide information to management that could help in the
development of corrective actions for the management advisory comments identified in
the audit.

A separate report will be issued to the Chief Information Officer containing management
advisory comments pertaining to the audit procedures performed over the Department’s
general controls and security over Information Technology (IT) systems that support the
financial statements.

Significant Deficiencies

Details over the significant deficiencies, listed below, are included in the Independent
Auditors’ Report found in DOL’s FY 2007 Performance and Accountability Report.


   1. Lack of Adequate Controls over Access to Key Financial and Support Systems
   2. Weakness Noted over Payroll Accounting
   3. Weakness Noted over Budgetary Accounting
   4. Lack of Segregation of Duties over Journal Entries



Prepared by KPMG LLP                                                                        3
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007

Management Advisory Comments

Although not considered to be significant deficiencies, certain other non-IT matters were
noted during the audit which we would like to bring to management’s attention. These
findings and recommendations are presented in this report.




4                                                                      Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                                                  Management Advisory Comments Identified in an
                                                                   Audit of the Consolidated Financial Statements
                                                                           For the Year Ended September 30, 2007



                            KPMG LLP
                            2001 M Street, NW
                            Washington, DC 20036

Mr. Douglas W. Webster
Chief Financial Officer
U.S. Department of Labor
Washington, DC 20210

January 11, 2008


Mr. Webster:

We have audited the consolidated financial statements of the U.S. Department of Labor
(DOL) for the year ended September 30, 2007, and have issued our report thereon
dated November 9, 2007. In planning and performing our audit of the consolidated
financial statements of DOL, in accordance with auditing standards generally accepted
in the United States of America, we considered DOL’s internal control over financial
reporting (internal control) as a basis for designing our auditing procedures for the
purpose of expressing our opinion on the consolidated financial statements but not for
the purpose of expressing an opinion on the effectiveness of DOL’s internal control.
Accordingly, we do not express an opinion on the effectiveness of DOL’s internal
control.

During our audit we noted certain matters involving internal control and other
operational matters that do not relate to information technology and are presented for
your consideration. These comments and related recommendations, all of which have
been discussed with the appropriate members of management, are intended to improve
internal control or result in other operating efficiencies and are summarized in Exhibit I,
Management Advisory Comments. Comments involving internal control and other
operational matters noted that relate to information technology will be presented in a
separate letter to the Chief Information Officer.

In addition, we identified certain deficiencies in internal control that we consider to be
significant deficiencies, and communicated them in our Independent Auditors’ Report
dated November 9, 2007.

Our audit procedures are designed primarily to enable us to form an opinion on the
consolidated financial statements, and therefore may not bring to light all weaknesses in
policies or procedures that may exist. We aim, however, to use our knowledge of
DOL’s organization gained during our work to make comments and suggestions that we
hope will be useful to you.



Prepared by KPMG LLP                                                                                           5
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
                               KPMG LLP, a U.S. limited liability partnership, is the U.S.
                               member firm of KPMG International, a Swiss cooperative.
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007




We would be pleased to discuss these comments and recommendations with you at
any time.

This communication is intended solely for the information and use of DOL management,
DOL’s Office of Inspector General, the Office of Management and Budget, the
Government Accountability Office, and the U.S. Congress, and is not intended to be and
should not be used by anyone other than these specified parties.


Very truly yours,




6                                                                      Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I

1. Inadequate Evidence of Timing of Journal Voucher Review

On a monthly basis, federal agencies perform reconciliations to ensure the accuracy
and completeness of their Fund Balance with Treasury (FBwT) accounts. The
reconciliation process is designed to identify discrepancies between the records of the
federal agency and the U.S. Department of the Treasury (Treasury). Federal agencies
are required to research identified differences and determine the appropriate corrective
action to resolve the issue. Some of the corrective actions require an adjusting entry or
transaction code to be posted to the general ledger.

In FY 2006, we noted that select personnel within the U.S. Department of Labor (DOL)
had the capability to record and authorize their own transactions in the general ledger
when resolving differences detected during the FBwT reconciliation process. To correct
this deficiency, in FY 2007, the Office of the Chief Financial Officer (OCFO)
implemented a supervisory review control designed to have a supervisor or personnel
other than the preparer review a journal voucher schedule prior to the transaction being
posted in the general ledger.

Based on our examination of the documentation supporting the Government-Wide
Account Statement (GWA) reconciliation and accompanying journal vouchers for the
month of January 2007, we noted the reviewer signed the document indicating she had
reviewed the support. However, she did not provide the date when this review took
place. Thus, we were unable to obtain appropriate evidence to determine if the
reviewer reviewed the journal vouchers prior to the adjustments being posted in the
general ledger.

As a result of this exception, journal vouchers that had not been reviewed and approved
may have been posted to DOL’s general ledger, thus increasing the risk that a
misstatement could have occurred and not been detected and corrected in a timely
manner. The exception occurred as a result of the control DOL implemented which did
not require that the reviewer both sign and date the support to indicate proper review
and approval.

As required by the Federal Managers’ Financial Integrity Act of 1982, the Government
Accountability Office (GAO) issued the Standards for Internal Control in the Federal
Government (Standards), which states, “Internal control and all transactions and other
significant events need to be clearly documented, and the documentation should be
readily available for examination. The documentation should appear in management
directives, administrative policies, or operating manuals and may be in paper or
electronic form. All documentation and records should be properly managed and
maintained.”




Prepared by KPMG LLP                                                                        7
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I

Recommendation

1. We recommend that the Chief Financial Officer ensure that the supervisor or
   separate personnel other than the preparer of the journal vouchers sign and date
   when his or her review occurred in order to provide evidence that the review and
   approval took place prior to the posting of the journal voucher to the general ledger.

Management’s Response

Management concurs with this recommendation and has implemented policy changes
that require all journal voucher authorizing and approving actions to be dated. A new
form was developed to document journal voucher entries, which include the preparer’s
name, reviewer’s name and the appropriate dates. In addition, we have implemented
additional control procedures to monitor compliance with the policy change.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2008 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

2. Certain Improvements Needed in Financial Reporting

During the FY 2006 audit (Report No. 22-07-001-13-001), we noted the following related
to DOL’s Performance and Accountability Report (PAR):

    1. Required Supplementary Stewardship Information (RSSI) – The Employment
       and Training Administration (ETA) and Job Corps disclosure omitted certain
       outputs and outcomes.
    2. Required Supplementary Information (RSI) – Deferred Maintenance disclosure
       omitted asset condition information.
    3. Programs and costs in the Statement of Net Cost (SNC) and the related
       suborganizations in Note 15 did not clearly link to the strategic goals included in
       Management’s Discussion and Analysis (MD&A).

In FY 2006, we made the following recommendation:

We recommend that the Chief Financial Officer develop and implement
procedures to compile and report the information discussed above in the FY 2007
and future PARs. Related supporting documentation should be maintained and
made available to the auditors for review.

During our review of the RSSI, RSI, and MD&A during the FY 2007 audit, we noted the
following:

8                                                                      Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I

• Findings 1 and 2 from the FY 2006 audit are considered resolved and closed as
  both were corrected during FY 2007.
• Finding 3 is unresolved and open as it was not corrected in FY 2007; therefore, we
  are issuing a modified recommendation below.

Also, during the FY 2007 audit we noted that MD&A is not consistent with reported
financial statement information, as a Pension Benefit Guarantee Corporation (PBGC)
performance result was included in the Performance Section; however, it was excluded
from the financial statements.

As a result of the exceptions, PAR readers are unable to easily relate the audited costs
presented in the SNC to the strategic goals discussed in the MD&A. Additionally,
consistency of performance reporting and financial reporting is not maintained, as
PBGC is included in one and excluded from the other.

The SNC is not linked to the strategic goals because Office of the Chief Financial
Officer (OCFO) personnel do not believe the linkage between DOL’s strategic goals and
cost information is feasible due to the structure of the strategic goals. DOL has four
strategic goals that are supported by several program level goals. The PBGC
consistency exception occurred because DOL obtained a waiver to exclude PBGC’s
financial information from the consolidated financial statements, but absent discussion
in the waiver about performance results and given the inclusion of PBGC in DOL’s
budget, DOL believes it should include PBGC performance results in its MD&A and
Performance Section.

Section II.2.6 of Office of Management and Budget (OMB) Circular No. A-136 states,
“Entities should strive to articulate efficiency and effectiveness by developing and
reporting objective measures that, to the extent possible, indicate results achieved and
related major goals and objectives in their strategic plan to cost categories (i.e.,
responsibility segments) presented in the entity’s Statement of Net Cost (SNC).” In
addition, section II.4.4 of OMB Circular No. A-136 states, “Preparers of the SNC should
present responsibility segments that align directly with the major goals and outputs
described in the entity’s strategic and performance plans, required by [Government
Performance and Results Act (GPRA)].”

Section II.1 of OMB Circular No. A-136 states, “Under the Reports Consolidation Act of
2000 (Pub. L. No. 106-531), agencies are permitted to submit combined reports in
implementing statutory requirements for financial and performance management
reporting to improve the efficiency of executive branch performance. These reports are
combined in the PAR, which consists of the Annual Performance Report required by the
GPRA (Pub. L. No. 103 – 62) with annual financial statements and other reports, such
as agencies’ assurances on internal control, accountability reports by agency heads and
IGs’ assessments of the agencies’ most serious management and performance
challenges. PARs provide financial and performance information that enables the

Prepared by KPMG LLP                                                                          9
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
President, the Congress, and the public to assess the performance of an agency
relative to its mission and to demonstrate accountability.”

Section II.2.1 of OMB Circular No. A-136 states, “The MD&A should provide a clear and
concise description of the reporting entity’s performance measures, financial
statements, systems and controls, compliance with laws and regulations, and actions
taken or planned to address problems.” In addition, section III.2.3 indicates, “The
MD&A provides management with a vehicle for communicating insights about the entity,
increasing the understandability of financial information, and providing information about
the entity, its operations, service levels, successes, challenges, and future.”

Recommendations

We recommend that the Chief Financial Officer:

1. Develop and implement procedures to link the statement of net cost to DOL’s
   strategic goals.

2. Formally consult with OMB to determine whether or not PBGC performance
   information should be reported in DOL’s PAR.

Management’s Response

Management does not concur with the auditors’ recommendations. With respect to
strategic goals, management concludes that DOL’s strategic goals have been
sufficiently linked to the Consolidated Statement of Net Costs. The MD&A section of
DOL’s FY 2007 PAR provides detailed information regarding its net costs at pages 22
through 27 of the report. The table presented on these pages provides details as to
program net costs by strategic goal and performance goal, and provides a three year
comparison for each. For each year presented, the total net costs is reconciled to the
corresponding total presented on the Consolidated Statement of Net Costs.

With respect to PBGC performance data, management does not concur with the
auditors’ recommendation. However, to address this apparent inconsistency in DOL’s
FY 2007 PAR, we included a link to PBGC’s Annual Management Report – which
contains PBGC’s financial statements. DOL also added the following footnote to the
presentation of DOL’s organization chart on page five of the PAR: “PBGC – a Federal
corporation created by the Employee Retirement Income Security Act of 1974 – is not
included in the DOL organization chart. However, PBGC’s performance is included in
the Annual Performance Report because PBGC’s performance goals are included in the
Department’s performance budget.” Furthermore, the July 18, 2007, waiver received
from OMB did not address performance data – which we interpret as OMB’s
approbation for continuing DOL’s long-standing practice of incorporating PBGC’s
performance information in our annual report. We note that prior to its publication, the


10                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
Department submits the draft PAR to OMB for review. OMB approved our publication of
the PAR with the inclusion of PBGC performance data.

Auditors’ Conclusion

We reviewed management’s response, and we disagree with their conclusions because
the information presented does not address our recommendations. Therefore, these
recommendations are considered unresolved pending completion of corrective action
plans with specified timeframes for implementation to address our recommendations.

3. Closing Balances Reported on the FMS-6655 are not Reconciled to the General
   Ledger 1010

Treasury Receipt Account Trial Balance (FMS-6655) presents receipt balances by fund
account symbol and department, including current month and year-to-date totals.
Federal agencies must reconcile their current month and year-to-date receipt activity to
the balances disclosed on this report.

On a monthly basis, DOL’s OCFO reconciles the FBwT closing balance reported on the
FMS-6655 to equity accounts; however, no such reconciliation was performed against
the FBwT (account 1010) ending balance as reported in the general ledger (i.e., the
Department of Labor Accounting and Related Systems (DOLAR$)). Based on our
examination of the OCFO’s January 2007 receipt account reconciliation, the general
ledger FBwT receipt account ending balances reported on the OCFO reconciliation did
not represent the actual general ledger receipt accounts balances reported in account
1010. Thus, actual differences may have existed between the DOLAR$ FBwT receipt
account ending balances and the FMS-6655 FBwT receipt account closing balances
that were not included in the OCFO FMS-6655 reconciliation.

Specifically, the FMS-6655 FBwT receipt account ending balances are reconciled either
(1) to equity accounts referred to as Unavailable Receipts – Collections (account 3621)
and Unavailable Receipts – Disbursements (account 3622) reported in DOLAR$, or (2)
to revenue accounts referred to as Interest Income (account 5310) or the total of
Income – Fines and Penalties (account 5420) and Revenue Appropriation Receipts
Income (account 5430) reported in DOLAR$. Our analysis disclosed that situation (1)
occurred in Internal Accounting Codes (IAC) 720, 730, 735, 780, 799, and 869 and that
situation (2) occurred in IAC 020 and IAC 024.

As a result of this exception, actual differences between the FMS-6655 FBwT closing
balance and the general ledger FBwT ending balance (as reported in account 1010)
may exist and may not be resolved. In addition, reconciling FMS-6655 FBwT closing
balances to equity and revenue account ending balances increases the risk that: (1) the
OCFO is not effectively performing its FMS-6655 reconciliation to identify differences
between Treasury’s records and DOL’s records; and (2) FBwT reported in the general
ledger is misstated.
Prepared by KPMG LLP                                                                         11
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
The current design of the FMS-6655 reconciliation, and thus this exception, was caused
by DOLAR$ not using general ledger account 1010 for DOL’s receipt accounts. In
addition, it was easier for the OCFO to reconcile the equity or revenue account ending
balances to the FMS-6655 FBwT ending receipt balances based on how the OCFO
tracks the receipt activity.

Treasury’s FBWT Reconciliation Procedures A Supplement to the Treasury Financial
Manual (TFM) 1 TFM 2-5100 November 1999 (Reconciliation Procedures), states, “The
procedures defined in this document provide step-by-step instructions on reconciling the
FBWT….These procedures pertain to Federal agencies that must report receipt and
disbursement activity to Treasury.” Regarding the FMS-6655 reports Unappropriated
Receipt Account Ledger, Receipts Trial Balance, and Report of Unavailable Receipts
Transactions, the FBwT reconciliation procedures further state that “Federal agencies
must reconcile their current month and year-to-date receipt activity to the balances
disclosed in this report.”

TFM Chapter 5100 section 5120, Definition of Terms FBWT, states, “Agencies must
reconcile the corresponding SGL 1010 account balance for each Treasury account
symbol reported, as shown on the monthly FMS 6653 and 6655 from FMS.”

Recommendation

We recommend the Chief Financial Officer:

1. Ensure that account 1010 is used in DOLAR$ to record FBwT in DOL’s receipt
   accounts.

2. Revise current reconciliation procedures for FBwT so that OCFO personnel reconcile
   the account 1010 balance for each Treasury account symbol reported, as shown on
   the monthly FMS-6655 from FMS. In doing so, the receipt account reconciliation
   should show the actual differences between the FBwT receipt account ending
   balance reported in DOLAR$ and the FBwT receipt account ending balance reported
   in the FMS-6655.

Management’s Response

Management concurs with the auditors’ recommendations and will initiate the necessary
changes to ensure that miscellaneous receipts are recorded in the 1010 accounts in
accordance with current Treasury requirements, and that these receipts are
incorporated in the FBwT reconciliation process. New transaction codes will be
developed to record miscellaneous receipts activity using general ledger account 1013,
and any FY 2008 transactions recorded prior to this change will be reversed and
recorded again using the revised codes. All agencies will be informed as to the proper
use of the new transaction codes. This process will be completed by April 15, 2008.


12                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2008 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

4. Improvements Needed in the Statement of Differences (FMS-6652) Reconciliation
   Process for Agency Location Code (ALC) 16012012

On a monthly basis, agencies report their deposit and disbursement activity to Treasury
using the Statement of Transactions (SF-224). Upon receiving the SF-224 from DOL,
Treasury compares its deposit and disbursement records to the deposit and
disbursement data reported on the agency’s SF-224. If any differences are noted,
Treasury reports these discrepancies on the FMS-6652 for deposits or disbursements.

Treasury requires that federal agencies reconcile their account 1010 and any related
sub-accounts with the FMS-6652. In addition, federal agencies must research and
resolve differences reported on the monthly FMS-6652.

We noted the following in the Occupational Safety and Health Administration’s (OSHA)
FMS-6652 reconciliation process for ALC 16012012:

   Lack of an electronic or physical reconciliation document or worksheet that identifies
    the following: (1) what individual transactions represent the total difference reported
    on the FMS-6652; (2) an explanation regarding what caused the individual
    difference; (3) an explanation of how the differences were resolved; (4) who
    performed the reconciliation; (5) when the reconciliation was completed; (6) what
    supervisor or manager reviewed the reconciliation; and (7) when that review took
    place.

   Lack of supervisor and/or management review over the FMS-6652 reconciliation
    performed by a separate person other than the preparer.

Lack of formal documentation of a reconciliation and its subsequent review increases
the risk that: (1) reconciliations may not be performed in a consistent and timely
manner; (2) insufficient documentation (i.e., physical or electronic) exists to substantiate
the performance of the FMS-6652 reconciliation and corrective actions; (3) incomplete
reconciliations may be performed; (4) differences may not be adequately researched
and resolved; and (5) significant differences may not be detected that could result in
material misstatements to the FBwT account.

These exceptions occurred because OSHA believed that the OCFO was responsible for
resolving the differences reported on the monthly FMS-6652 and reviewing and
approving the final reconciliation.


Prepared by KPMG LLP                                                                         13
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
GAO’s Standards state, “Control activities are the policies, procedures, techniques, and
mechanisms that enforce management’s directives, such as the process of adhering to
requirements for budget development and execution.” The Standards further state,
“Internal control and all transactions and other significant events need to be clearly
documented, and the documentation should be readily available for examination. The
documentation should appear in management directives, administrative policies, or
operating manuals and may be in paper or electronic form. All documentation and
records should be properly managed and maintained.” In addition, “Key duties and
responsibilities need to be divided or segregated among different people to reduce the
risk of error or fraud. This should include separating the responsibilities for authorizing
transactions, processing and recording them, reviewing the transactions, and handling
any related assets. No one individual should control all key aspects of a transaction or
event.”

TFM Chapter 5100, section 5120 states, “Agencies should document their
reconciliations and make them available to agency management, auditors, and
Treasury, if requested. Agencies also should ensure that all adjustments are
researched and traceable to supporting documentation.”

Treasury’s FBWT Reconciliation Procedures A Supplement to the TFM 1 TFM 2-5100
November 1999 (Reconciliation Procedures), states, “The procedures defined in this
document provide step-by-step instructions on reconciling the FBWT…These
procedures pertain to Federal agencies that must report receipt and disbursement
activity to Treasury.”      This document also states, “Reconciliation and related
verifications ensure and demonstrate the integrity of the accounting system. These
functions are necessary for a well regulated system. To increase the efficiency of
reconciling the fund balance, each agency system should perform the following: each
financial systems policies and documented procedures should provide for: (1) regular
and routine reconciliation of G/L accounts, (2) thorough investigation of differences, (3)
determination of specific causes of differences, and (4) initiation of corrective action.
This includes having the ability to schedule coordinated cutoffs and systematically
produce a trial balance of the G/L. These activities must be scheduled and conducted
to facilitate rather than impede the reconciliation process.” In addition, this document
states, “When resolving differences, agencies should maintain detailed reconciliation
worksheets…that, if needed, can be reviewed by the agency’s auditors or Treasury.”

Recommendation

1. We recommend that the Chief Financial Officer and the Assistant Secretary for
   Occupational Safety and Health coordinate to determine the most appropriate party
   to perform this monthly reconciliation. Once the appropriate party has been
   determined, that party should implement the proper internal controls over these
   reconciliations (e.g., reconciliation preparation, review, and authorization). For the
   preparation of these reconciliations, management should retain supporting
   documentation, whether electronic or hard copy, to identify: (1) that reconciliations

14                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
   are performed; (2) that reconciliations are completed in a timely manner; (3) that
   reconciliations are reviewed by someone other than the preparer; (4) that a log of
   unresolved differences be maintained; (5) that explanations for causes of differences
   be provided; and (6) that show corrective actions were taken and when those
   actions were completed.

Management’s Response

Management agrees with this recommendation. The OCFO will work with OSHA staff to
ensure that appropriate internal controls are implemented, and will issue guidance to all
DOL agencies by instructing these agencies to perform their own FMS-6652
reconciliations. In addition, the guidance will require agencies to maintain adequate
documentation that provides supporting details such as whether the reconciliations are
completed properly, who reviewed the reconciliation, and how differences identified in
the reconciliation were resolved. These guidelines will be issued by February 29, 2008.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2008 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

5. Improper Source Documents for Deposits Recorded in the General Ledger and
   Subsequently Reported to Treasury and Collections Cut-off

OSHA generates revenue by assessing fines and penalties to businesses that do not
meet safety and health standards. During our FY 2006 audit (Report No. 22-07-001-13-
001), we noted that OSHA collections were not properly cut-off at year-end. As such,
we made the following recommendation:

We recommend that the Chief Financial Officer and the Assistant Secretary for
Occupational Safety and Health develop policies and procedures to record
collections received near year-end in the general ledger in the proper fiscal year.

However, while testing the reconciliation of collections per the Integrated Management
Information System (IMIS) and collections per DOLAR$ provided to us by OSHA during
our FY 2007 audit, we again noted that collections that had been received by OSHA at
year-end were reported as collections in DOLAR$ in FY 2008 ($1,180,492) based on
Treasury CA$H-LINK reports instead of information within IMIS.

Throughout the year, the CA$HLINK Deposit Activity Report is the only source
document OSHA uses to record cash collection information into DOLAR$, as required
by DOL procedures. Subsequently, the OCFO uses the deposit information that is
entered into DOLAR$ to prepare and submit the monthly SF-224 to Treasury.


Prepared by KPMG LLP                                                                         15
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
Since Treasury also uses CA$HLINK as a source for deposit information to compare
with the amounts reported by the OCFO on the SF-224 regarding OSHA’s monthly
transactions, Treasury will not identify differences that may actually exist. Additionally, if
collections are not recognized when they are received, then reported collections related
to civil monetary penalties may be overstated or understated for the fiscal year.

This exception is a result of the Disbursement and Deposit Reconciliation Procedures,
prepared by the OCFO, outlined in such away to allow an interpretation that one should
use the confirmed deposits reported by the Federal Reserve Bank as the source
document to record into DOLAR$.

According to Statement of Federal Financial Accounting Standards (SFFAS) No.7,
Accounting for Revenue and Other Financing Sources and Concepts for Reconciling
Budgetary and Financial Accounts, “the source and disposition of revenue from taxes,
duties (which are a type of tax), and related fines, penalties and interest should be
measured by the collecting entities in a manner that enables reporting of (1) cash
collections, refunds, and the “accrual adjustment” necessary to determine the total
revenue and (2) cash or cash equivalents transferred to each of the recipient entities
and the revenue amounts to be recognized by each of them….Cash collections should
be based on amounts actually received during the fiscal period, including withholdings,
estimated payments, final payments, and collections of receivables. Cash collections
include any amounts paid in advance of due dates unless they are deposits.”

The U.S. Government Standard General Ledger (USSGL) – Accounts and Definitions
indicates that account 1110 should be used for “collections on hand, not yet deposited
within the same accounting period.”

We consider the FY 2006 recommendation to be unresolved pending completion of a
corrective action plan with specified timeframes for implementation. Additionally, we
make the following new recommendations:

Recommendations

1. We recommend that the Chief Financial Officer update current policies and
   procedures to specifically indicate what source documents are appropriate to use in
   order to record deposit transactions into DOLAR$ (and indicate what source
   documents are not appropriate source documents for deposit transactions recorded
   in the general ledger).

2. We recommend that the Assistant Secretary for Occupational Safety and Health use
   the deposit information reported in IMIS as the source documentation for deposits to
   be recorded into DOLAR$.




16                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
Management’s Response

Management does not concur with the auditors’ recommendations. The Treasury
Financial Manual specifies that the SF 215 is an appropriate source record for recording
receipts within the core accounting system (this fact was verified via telephone
conversation with Treasury’s FMS). OSHA deposits are recorded in DOLAR$ using SF
215 information based on the date the deposit is confirmed by the U.S. Treasury, as
shown in CA$HLINK reports. This process ensures that deposits are posted to the
proper fiscal year. Accordingly, OSHA believes that it properly follows relevant U.S.
Treasury guidelines for recording collections received, and that amounts recorded in the
general ledger are adequately supported.

The receipts recorded in IMIS are based on Lockbox deposit information obtained from
the bank. These are reconciled on a monthly basis to amounts recorded in DOLAR$,
which in turn are reconciled to Treasury via the SF 224 process. This methodology
ensures that the receipts recorded in both IMIS and DOLAR$ are complete, accurate,
and valid receipts, which have been forwarded to the U.S. Treasury. The reconciliations
for FY 2007 did not detect differences between amounts recorded in IMIS, DOLAR$ and
Treasury, and management concludes that the controls in place produced complete and
accurate results. Based on these facts, we do not concur with the auditors’ conclusion
that our process is somehow deficient.

With respect to written procedures, OCFO will update existing procedures to ensure
clarity, and to ensure that appropriate source records for deposit transactions are
identified.

Auditors’ Conclusion

Although management stated that they do not concur with our recommendations, they
have taken steps to address them. Therefore, these recommendations are considered
resolved and open. FY 2008 audit procedures over the monthly reconciliations will
determine whether these recommendations have been adequately addressed and can
be considered closed.

6. Weaknesses Noted over Interest Calculations

During the FY 2006 audit (Report No. 22-07-001-13-001), we noted that OSHA only
records interest receivable when debt letters are sent to employers or when debt is
transferred to Treasury for debt collection. OSHA does not ensure that its interest
receivable balances are appropriately accrued between the time of the last debt letter
and the time that the debt is sent to Treasury. As a result of this exception, the interest
receivable balance is understated.




Prepared by KPMG LLP                                                                         17
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
Additionally in FY 2006, we identified that since November 2005, one day of interest
was omitted from the Mine Safety and Health Administration’s (MSHA) interest
calculation each month.

In FY 2006, we made the following recommendations:

We recommend that the Chief Financial Officer and the Assistant Secretary for
Occupational Safety and Health develop procedures to accrue and record interest
receivable on a quarterly basis.

We recommend that the Chief Financial Officer and the Assistant Secretary for
Mine Safety and Health design, test, and implement changes to MSHA’s
subsidiary ledger to correct errors in the calculation of interest and ensure that
controls are in place to detect such system errors in the future.

However, in FY 2007, we noted that OSHA still only records interest receivable when
debt letters are sent to employers or when debt is transferred to Treasury for debt
collection. This exception occurred because interest is not automatically calculated and
updated by OSHA’s sub-ledger, IMIS. IMIS calculates the interest, but OSHA has to tell
the system to update each case when the first demand letter is issued, when the
Treasury Notification Letter is issued, or when the debt is submitted to Treasury. This is
a limitation of IMIS.

Although MSHA implemented corrective action on December 24, 2006 to address the
finding from FY 2006 related to its interest-related system error, the correction was not
applied retroactively to previously reported accounts receivable. As of result of the error
in MSHA’s interest calculation in the past and the lack of retroactive implementation of
the corrective action its subsidiary ledger, the balance of accounts (interest) receivable
is understated.

OMB’s Circular No. A-129, “Policies for Federal Credit Program and Non-Tax
Receivables”, states that,

       “Interest, penalties and administrative costs should be added to all debts unless
       a specific statute, regulation, loan agreement, contract, or court order prohibits
       such charges or sets criteria for their assessment. Agencies shall assess late
       payment interest on delinquent debts. Further, agencies shall assess a penalty
       charge of not more than six percent (6%) per year for failure to pay a debt more
       than ninety (90) days past due, unless a statute, regulation required by statute,
       loan agreement, or contract prohibits charging interest or assessing charges or
       explicitly fixes the interest rate or charges. A debt is delinquent when the
       scheduled payment is not paid in full by the payment due date contained in the
       initial demand letter or by the date specified in the applicable agreement or
       instrument. Agencies shall assess administrative costs to cover the cost of
       processing and handling delinquent debt. Agencies must adjust the interest rate

18                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
       on delinquent debt to conform to the rate established by a U.S. Court when a
       judgment has been obtained.”

According to SFFAS No. 7, Accounting for Revenue and Other Financing Sources and
Concepts for Reconciling Budgetary and Financial Accounts, the balance of accounts
receivable for each reporting period should “include only unpaid assessments made
through the end of the period plus related fines, penalties, and interest.”

Based on the results of the FY 2007 audit testwork, we consider the prior year OSHA
recommendation as unresolved pending completion of a corrective action plan with
specified timeframes for implementation. In addition, we consider the prior year MSHA
recommendation as resolved and open pending a retroactive system correction of the
error or implementation of a procedure to record a journal entry quarterly to correct
errors in the calculation of interest from November 2005 to December 2006.

OSHA Management’s Response

Management believes that the amount of interest involved with this finding is minimal.
From a practical standpoint, OSHA’s experience with delinquent penalty debt is that
substantially less than half of the account values are ultimately collected. For this
reason, a substantial allowance for loss on delinquent debt is taken beginning at 90
days delinquent. Debt over two years delinquent is written off for financial reporting.
We believe that the interest accrual that is being recommended falls far short of meeting
a level of materiality that would justify the recommended type of journal voucher
process.

Nevertheless, we will perform procedures to determine the actual interest amount
impacted by this finding, and will evaluate whether or not to record quarterly accruals
based on the dollar amount and level of effort involved in the process. These
procedures will be performed beginning in the second quarter of FY 2008.

MSHA Management’s Response

MSHA will implement a procedure to record a quarterly journal entry to account for the
interest error from November 2005 to December 2006.

A request was submitted to the software development team to create a report to show
interest calculations for outstanding debt with interest calculated during the dates
specified above. The estimated completion date is March 14, 2008.

An enhancement ticket was submitted to add the last interest calculation date to the
accounts receivable detail report (Sub-Ledger). The inclusion of the last interest
calculation date will be used for validation of interest amounts reported



Prepared by KPMG LLP                                                                         19
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
Auditors’ Conclusion

These recommendations are considered resolved and open.               FY 2008 audit
procedures, including procedures over OSHA’s periodic evaluation of the significance of
the actual interest amount and MSHA’s newly implemented procedure, will determine
whether these recommendations have been adequately addressed and can be
considered closed.

7. Improvements Needed in Grant Controls

DOL is charged with preparing the American workforce for new and better jobs and
ensuring the adequacy of America's workplaces. As part of accomplishing this mission,
ETA, Veterans' Employment & Training Service (VETS), and the Bureau of International
Labor Affairs (ILAB) issue grants to various organizations.

The ETA, VETS, and ILAB grantees are required to submit quarterly Financial Status
Reports (SF 269) which document the costs incurred by the grantee. The assigned
Federal Project Officer/Grant Officer (FPO) initially performs a cursory review of the SF
269 and then performs a more comprehensive review and analysis of the financial
reports within 30 days of receipt of the reports. The FPO is responsible for ensuring
that the grantee is submitting its required reports in a timely manner. The financial
review includes determining whether the amounts are reasonable, accurate, complete,
and in accordance with the project. Additionally, the FPO reviews the cash draw downs
to ensure that the cash drawn down is being used to meet the grantee’s immediate cash
needs. If any discrepancies or issues are noted, the FPO contacts the grantee.

ETA grantees are also required to submit performance-based progress reports on a
quarterly basis. The assigned FPO performs a comprehensive review and analysis of
the performance reports within 30 days of receipt of the reports.

For ETA grants, it is ultimately the responsibility of the FPO to monitor his/her grantees
to ensure that the appropriate financial and performance reports are submitted in a
timely manner. To aid in this monitoring, the Division of Financial and Systems
Services (DFSS) generates a “Delinquent Cost Report” quarterly from the Enterprise
Business Support System (EBSS/E-Grants), which denotes those grantees who are
delinquent in reporting its costs to ETA. For those grantees identified, the DFSS staff
notifies the assigned FPO who is responsible for contacting the grantee to ascertain the
reason for the delinquency before further action is taken.

During our testing over the grants process in FY 2007, we noted the following
weaknesses in internal control:

•    During testwork over ETA Delinquent Cost Reports through March 31, 2007, we
     noted that adequate documentation supporting that the FPO had followed-up with

20                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
    the grantees on the delinquencies report did not exist for 2 of the 15 delinquent
    grantees selected.

•   A progress report desk review was not completed for 2 of the 62 ETA reports tested
    through June 30, 2007.

•   For 2 of 117 statistically-selected FY 2007 grant expenses recorded in DOLAR$
    through March 31, 2007, we noted that the expense amount in DOLAR$ did not
    agree to the grantees’ SF 269. Of the two noted exceptions, one item relates to
    VETS and the other item relates to ILAB.

    For the VETS exception, the cumulative cost reported in DOLAR$ was greater than
    the cumulative cost reported on the SF-269 by $3,623 as of March 31, 2007, which
    was not detected by the VETS. We also noted that this issue was subsequently
    resolved during the submission of the June 30, 2007 SF-269.

    For the ILAB exception, the cumulative cost reported in DOLAR$ was less than the
    cumulative cost reported on the SF-269 as of March 31, 2007 by $45,538.

Without adequate controls over the grant process, grantees may be misusing grant
funding, and grant expenses, advances, payables, and undelivered orders (UDOs)
could be misstated.

Several circumstances contributed to these conditions as follows:

•   ETA did not consistently maintain adequate support for communications with
    grantees to resolve issues such as delinquent reporting.

•   ETA did not adequately verify that all required progress report desk reviews were
    completed, as no supervisory review was performed to ensure that the FPOs were
    performing all of their assigned grantees’ progress report desk reviews.

•   VETS and ILAB did not have adequate procedures in place to ensure that data
    submitted on SF-269s were recorded correctly and reconciled to DOLAR$ in a timely
    manner.

GAO’s Standards state, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records which provide evidence of execution of
these activities as well as appropriate documentation. Control activities may be applied
in a computerized information system environment or through manual processes.” In
addition, it provides examples of control activities, which include “reviews by
management at the functional or activity level.”


Prepared by KPMG LLP                                                                         21
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
Recommendations

We recommend that the Assistant Secretary for Employment and Training:

1. Reinforce procedures which require a detailed review of the “Delinquent Cost
   Report” every quarter for the entire year. Additionally, FPOs or the individuals
   contacting the delinquent grantee should be required to maintain accurate records of
   the communication and results. Supervisors should review a sample of delinquent
   cost reports to confirm that the FPOs are resolving these situations timely; this
   review should be documented.

2. Require supervisors to review a sample of grantees’ progress report desk reviews to
   confirm that the reports are being completed timely; this review should be
   documented.

Management’s Response

Since the results of a sample of 15 can not be statistically extrapolated to the
population, we do not necessarily agree that there is a systematic problem with the ETA
grant management systems and processes. Nevertheless, the Employment & Training
Administration is committed to the following actions to address KPMG’s findings and
recommendations for improving controls over grants management:

•    Ensure that all existing FPOs and their supervisors have access to the appropriate
     systems needed to perform their duties. This is ongoing as new FPOs are assigned.
     (January 2008).
•    Reinforce existing procedures. This will be done through agency directives and
     training of staff. A memorandum to employees will be prepared reinforcing to FPOs
     and their supervisors agency requirements for quarterly desk reviews, and the
     appropriate steps to take when reporting is not timely or is otherwise problematic.
     Also, OFAM is developing Core Training for FPOs to address core competencies
     and technical skills required of the job. Training will be required and provided as
     part of Employment and Training Administrations Innovate University (EIU). (June
     2008).
•    Independently assess the effectiveness of agency procedures through confirmation
     that grantee cost reports are being submitted timely, and desk reviews are being
     done within required timeframes. This review will be completed by the Division of
     Financial Accountability and Control in the quarter in which reports are due.
     (Beginning Q2, FY08 for Q1 reports).
•    Complete a review of Agency grants management procedures and update, as
     appropriate, existing procedures. This includes “ETA Order 01-03, Improving the
     Administration of Grants with the Employment and Training Administration.” (March
     2008).



22                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2008 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

3. We recommend that the Assistant Secretary for the Veterans' Employment and
   Training Service and the Deputy Undersecretary for International Affairs
   implement adequate procedures to ensure that submitted cost reports are
   recorded correctly and reconciled to DOLAR$ in a timely manner.

VETS Management’s Response

VETS has met the proposed milestones below and will continue implementing adequate
procedures in FY 2008.

First Quarter FY 2008:

Milestone: VETS Deputy Assistant Secretary issued a memorandum to all of VETS’
National Office staff revising current Program grant(s) processes and procedures.

Milestone: All applicable SF 269 reports that were manually submitted by VETS’
grantees were forwarded directly to the Agency Budget Officer by applicable Program
staff.

Milestone: The Agency Budget Office ensures that the SF 269 reports are properly
reconciled to the Federal Cash Transactions Report PSC 272 and the PSC 272
recorded and reconciled with the DOL core financial system (i.e., DOLAR$).

Milestone: All manually submitted grantee SF 269 reports were reconciled to the PSC
272 and the PSC 272 recorded and reconciled against the DOL DOLAR$ core financial
system starting in the fourth quarter of FY 2007.

Milestone: All applicable grantee SF 269 reports submitted through the E-Grants system
for the fourth quarter ending September 30, 2007, are reviewed by the Agency Budget
Officer in partnership with the Grant Officer for any anomalies or inconsistencies with
the core financial system. Subsequent quarterly reviews of all grantee financial reports
are performed by the Agency Budget Officer and VETS’ budget staff.

In summary:
VETS will reconcile the SF 269s to the status reports submitted by the grantee. VETS
will reconcile the SF 269s to the PSC 272 from the quarterly HHS system. VETS will
also reconcile the PSC 272 posted to DOLAR$ timely each quarter. When differences
are identified, VETS will perform research to resolve differences. VETS will coordinate
with OFMO as needed on concerns related to the cost in DOLAR$.

Prepared by KPMG LLP                                                                         23
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
ILAB Management’s Response

ILAB concurs with the auditors findings and is fully committed to ensuring appropriate
internal controls as part of its oversight of grant funding. ILAB has written procedures
and policies for Grant Officer Technical Representative (GOTR) review of SF 269s, and
the Management Procedures and Guidelines (MPG) cited in ILAB cooperative
agreements outline grantee responsibilities for submission of SF 269s. ILAB written
procedures call for follow-up communication with grantees if they are late in submitting
SF 269s and/or when ILAB has questions regarding information submitted by a grantee
in its SF 269.

In keeping with ILAB’s commitment to proper oversight of funds, ILAB fully intends to
take all necessary steps to address and remedy the exception noted in the report. ILAB
agrees that program staff should perform a review of the SF 269 reports submitted by
the grantees against the cost data submitted in the PSC 272 through the HHS/PMS
system and review this against the cost data in DOLAR$. ILAB will review all internal
processes to ensure that all project managers are carrying out this 3 way review of SF
269s, PSC 272s and the DOLAR$ system. In addition, ILAB has initiated discussion
with OFMO to ensure proper and timely reconciliation of all cost report information from
SF 269s submitted by ILAB grantees against information based on grantee submissions
of PSC 272s into the HHS/PMS system and a reconciliation to DOLAR$. ILAB will also
work to ensure this issue is addressed for new awards that will be using the E-Grants
system.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2008 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

8. Grant Closeouts

During the FY 2006 audit (Report No. 22-07-001-13-001), we identified various
exceptions related to the closeout of grants, including timeliness and inconsistent review
of closeout documentation. As such, we made the following recommendations:

We recommend that the Assistant Secretary for Employment and Training
develop and implement review procedures within the Closeout Unit that the
supervisor will perform over the closeout inventory tracking system. These
procedures should include:

1. Following up on any grants that have not been closed within the required
   timeframes;
2. Contacting the Closeout Specialists who are assigned to grantees that have
   not submitted the closeout packages and are nearing the end of the required

24                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
     time frame (90 days) to confirm that communication is occurring with the
     grantees;
3.   Reviewing the status of grants where the closeout package has been
     submitted by the grantee;
4.   Ensuring that the grant specialists are reviewing and reconciling the closeout
     documents within the required 30 day timeframe;
5.   Ensuring that grants that are with DFSS are properly and timely being
     deobligated in DOLAR$; and
6.   Reviewing, on a sample basis, closeout documentation, specifically the Grant
     Closeout Preliminary Record, Accounting Checklist, and deobligation entries,
     to ensure that they are all properly approved and agree to all supporting
     documentation.

Starting November 2006, all grant information initially recorded in the Grants Tracking
System (GTS) and EBSS was transferred into the E-Grants system. Currently, grant
close-out data is generated from E-Grants; this data indicates the beginning and end
date for all grants.

During our testing over grant closeout procedures in FY 2007, we noted the following
weaknesses in internal control:

•    For 3 of the 45 closed grants selected, the folders could not be located; therefore,
     these sample items could not be tested.
•    For 2 of the 42 closed grants tested, the Closeout Specialists did not consistently
     review, analyze, and reconcile the closeout documentation within 45 days from the
     receipt of the final grant forms. No evidence in the grant file indicated what delayed
     the reconciliation process.
•    For 3 of the 42 closed grants tested, the Closeout Specialists were not adequately
     monitoring the grantee’s closeout status. We noted the grantees submitted their
     closeout documents after the allowed 90 days and no evidence existed in the grant
     files showing that the Closeout Specialist followed-up with the grantees to ascertain
     that the grantees submitted their documentation timely (either within 90 days after
     the grant expiration date or 90 days after receipt of closeout notification).
•    For 1 of the 42 closed grants tested, the Grants Officer did not approve the Grant
     Closeout Preliminary Record (evidenced by a signature).
•    For 28 of the 42 closed grants tested, we noted a lack of coordination between the
     Closeout Unit and DFSS regarding when the grant closeout files are given to DFSS
     for authorization/certification of the deobligation in DOLAR$ and when the grant
     closeout files are received back by the Closeout Unit. Per the dates provided by the
     Closeout Unit, we noted that these 28 items tested appeared to have taken more
     than 7 days to be certified by DFSS. However, per discussion with DFSS, we noted
     that 9 of the 28 items were actually certified within 7 days, but the Closeout Unit did
     not record the date accurately.



Prepared by KPMG LLP                                                                         25
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
Although the closeout supervisors perform periodic reviews (e.g., weekly or monthly),
these reviews have not consistently ensured that the Closeout Specialists are
adequately communicating with the grantees and that grants are timely closed. In
addition, the Closeout folders are not currently filed/stored in a manner where they can
be easily accessible.

Because folders could not be located for 3 of the 45 closed grants selected,
documentation does not exist to support the closure of these grants, and these sample
items could not be tested.

Without adequate controls over the grant closeout process, including certification and/or
de-obligation of funds when applicable by DFSS, grants are not closed in a timely
manner. Additionally, undelivered orders (UDO) may be overstated since remaining
UDO balances of expired grants are not de-obligated in a timely manner.

GAO’s Standards state the following: “Control activities occur at all levels and functions
of the entity. They include a wide range of diverse activities such as approvals,
authorizations, verifications, reconciliations, performance reviews, maintenance of
security, and the creation and maintenance of related records which provide evidence of
execution of these activities as well as appropriate documentation. Control activities
may be applied in a computerized information system environment or through manual
processes.” In addition, the Standards also provide examples of control activities, which
include “reviews by management at the functional or activity level.”

In FY 2007, ETA’s Closeout Manual provided the internally developed closeout
procedures and documentation on the timeframe for the assignment of grants
scheduled to be closed, the receipt of closeout documents from the grantee, and the
reconciliation of the closeout documents by the closeout specialist. The Closeout
Manual indicates, “Within 15 work days after the case is assigned, the specialist sends
an email notification via GCS to the grantee to initiate the closeout process. The
grantee had 90 days from the expiration date to complete the required closeout
documents. Within 45 work days after closeout documents are received, review &
reconcile closeout documents. If reconciliation cannot be reached within 45 days,
complete the Closeout Delay form to document the reasons(s) why. Once reconciliation
is completed, a notification is sent to DFSS via a shopping cart in E-Grants; once DFSS
has certified, the specialist has 2 days to send the final letter to grantee and close the
grant.”

Per discussion with ETA DFSS management, DFSS should complete the certification
process within 7 days.

We consider this recommendation resolved and open pending improvements to the
supervisory review process.



26                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
Management’s Response

ETA agrees with the recommendation and will reinforce existing procedures in order to
improve performance. However, we take exception to KPMG preparing the entire
finding based on timeframes outlined in the Closeout Unit Handbook. These deadlines
are internal deadlines established by the supervisory staff, used as a management tool,
and modified as the need arises. To prevent further confusion, ETA will revise the
Closeout Unit Handbook to remove stated timeframes (June 2008). We will continue to
adhere to standard operating procedures to ensure timeframes mandated by law,
regulation, and the Department are met.

In regard to the FY 2007 testing, we are taking the following steps to mitigate the
exceptions noted:

•   Contracted for the installation of radio frequency identification (RFID) equipment and
    procedures to assist in signing out and tracking of files. New file room procedures
    should be in place in February 2008 and will cure the file problem.
•   Revise ETA’s Closeout Manual to incorporate procedures to implement the E-Grants
    and E-Procurement System (EPS), and ensure that the closeout Specialists are
    adequately communicating with grantees for a timely notification and closure (June
    2008). The supervisor will continue to meet individually with staff on a monthly basis
    as well as periodically monitor the closeout process for each open case to ensure a
    timely closure, if possible.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2008 audit procedures
addressing management’s corrective action related to grant closeouts will determine
whether this recommendation has been adequately addressed and can be considered
closed.

9. Monitoring of Audit Completion in Accordance with the Single Audit Act
   Amendments of 1996 and OMB Circular No. A-133


In response to an FY 2006 reportable condition, “Weaknesses Noted over Grants”, the
OCFO implemented new monitoring procedures to ensure that FY 2005 audits of
grantees that expended $500,000 or more were completed and reports were received in
a timely manner. In monitoring grantees compliance, the OCFO tested a sample of 350
ETA grantees and 150 grantees from other DOL agencies and verified, among other
attributes, that the grantees submitted their audit reports within 9 months from the end
of their fiscal year.

Although the OCFO determined that 129 grantees of 500 grantees tested did not submit
their audit reports timely, DOL did not contact those grantees directly or follow-up with

Prepared by KPMG LLP                                                                         27
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
them to determine the reasons for the delay in submission and to ensure that audit
reports for subsequent years are submitted timely. However, DOL added a reminder in
the standard grant agreements to indicate that grantees must submit their audit reports
in accordance with the Single Audit Act Amendments of 1996 and OMB Circular No. A-
133.

As a result of these exceptions, DOL is not in full compliance with OMB Circular No. A-
133. However, DOL believes that the majority of the grantees’ audit reports were not
significantly delayed and that the reminder added to the standard grant agreements is
sufficient.

According to Section 7504 of the Single Audit Act Amendments of 1996, “Each Federal
agency shall, in accordance with guidance issued by the Director under section 7505,
with regard to Federal awards provided by the agency…monitor non-Federal entity use
of Federal awards.” According to OMB Circular No. A-133, non-Federal entities that
expend $500,000 or more in a year in Federal awards shall have a single or program-
specific audit conducted for that year. In addition, OMB Circular No. A-133, Subpart B,
section 220 and section 320 require the Federal awarding agency to “perform the
following for the Federal awards it makes:

       •   Except for the provisions for biennial audits (…), audits required by this part
           shall be performed annually…
       •   The audit shall be completed and the data collection form (…) be submitted
           within the earlier of 30 days after receipt of the auditor’s report(s), or nine
           months after the end of the audit period, unless a longer period is agreed to in
           advance by the cognizant or oversight agency for audit …”

In addition, OMB Circular No. A-133, Subpart D, section 400(c) requires the Federal
awarding agency to perform the following for the Federal awards it makes: “Ensure that
audits are completed and reports are received in a timely manner and in accordance
with the requirements of this part…”

GAO’s Standards state that “Internal control should generally be designed to assure
that ongoing monitoring occurs in the course of normal operations”

Recommendation

1. We recommend that the Chief Financial Officer amend existing procedures to
   require the grant officers to contact their delinquent grantees in writing to determine
   the reason for the delay and ensure that the audit reports for subsequent years are
   submitted on time.




28                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
Management’s Response

We disagree with the auditors’ conclusion that our monitoring procedures are not in
substantial compliance with OMB A-133. Our monitoring of the single audit process
provides sufficient assurance that grantees obtain single audits in compliance with OMB
A-133 requirements. Our latest monitoring efforts determined the following facts: (1) the
overwhelming majority of our grantees have an annual single audit, (2) DOL funding is
included in the scope of the single audits, (3) DOL programs are routinely selected and
tested as major programs, (4) single audit reports forwarded to granting agencies by the
OIG are processed through an approved audit resolution process, and (5) the
disallowed costs related to DOL programs identified in the single audits are very
insignificant. Accordingly, we conclude that DOL funds are being audited in accordance
with the requirements of OMB A-133, and that our monitoring of the single audit process
is sufficient.

As to the issue of timeliness raised by the auditor, the effect or impact of untimely audit
reports, at worst, is a delay in the initiation of audit resolution, and this would only apply
to the very small portion of the single audit reports that actually require resolution. (We
note that the auditor does not identify an effect or impact for this finding, other than to
say that DOL is not in full compliance with OMB A-133, which merely restates their
condition). The latest single audit process identified that only 29 of the FY 05 audit
reports researched were referred to the granting agencies for audit resolution. For this
reason, we do not believe that the impact of untimely reports justifies the resources
necessary to individually monitor each grantees single audit submission, as would be
required if we followed the recommendation made by the auditor.

Finally, we note that there are valid reasons why a single audit report may be submitted
late, and that OMB A-133 allows the cognizant or oversight agencies to authorize
extensions of the single audit report due date without notifying the awarding agencies.
Accordingly, it is not appropriate to assume that a grantee is not in compliance with A-
133 just because the report is not filed within nine months after the grantees fiscal year
end.

Our current procedures call for written notifications to be sent to the grantee, and a copy
to the cognizant or oversight agency, when the audit reports were submitted more than
three months past the due date. The letters serve to remind the grantee of the
timeframes established in OMB A-133, to ensure that the cognizant or oversight agency
is aware that the reports were submitted untimely, and to prevent future untimely
submissions. We believe that our process is compliant with OMB A-133 requirements.

Auditors’ Conclusion

Although management disagreed with our conclusion, this recommendation is
considered resolved and open because management developed procedures that
require written notifications to be sent to the grantees. FY 2008 audit procedures will

Prepared by KPMG LLP                                                                         29
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
test these new procedures and will determine whether this recommendation has been
adequately addressed and can be considered closed.

10. Training of Property Officers

During our testing over property, plant and equipment (PP&E) in FY 2006, we noted the
following weakness in internal control design and/or operating effectiveness:

•    40 disposal transactions of the 140 selected for testing were not supported by an
     appropriately executed Transaction Form/Survey Report DL-55C in accordance
     with DOL policies and procedures, and
•    100 disposal transactions of the 140 tested were not recorded in the correct period
     as the disposals were recorded as FY 2006 disposals but were disposed of in prior
     years.

As a result, we recommended the following in Report No. 22-07-001-13-001:

We recommend the Chief Financial Officer, the Assistant Secretary for
Employment and Training, and the Director of Job Corps provide additional
training for property officers to ensure they use an appropriately executed
Transaction Form/Survey Report DL-55C for all property dispositions and the
disposals are recorded in the correct accounting period.

During FY 2007, DOL did not provide additional training for its property officers.
However, DOL had begun planning for the training event. Therefore, we consider the
recommendation resolved and open pending implementation of the periodic training
event.

Management’s Response

Management concurs with this recommendation. OCFO management, in coordination
with OASAM, will provide property officers with additional training to address this issue.
In preparation for the training, OCFO has already prepared a draft agenda that
addresses the proper use of form DL-55C to document property dispositions. Relevant
training materials will be developed and training will be conducted by March 31, 2008.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2008 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.




30                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
11. Internal-Use Software

In the FY 2005 Findings and Recommendations to the Chief Financial Officer (OIG
Report No. 22-06-001-13-001), the OIG identified that DOL has not capitalized all
project costs for internal-use software in accordance with SFFAS No. 10, Accounting for
Internal Use Software. Specifically, the OIG determined there were 22 internal-use
software projects either developed or completed during FYs 2004 and 2005 for which
the agencies did not initially capitalize the costs. In the FY 2005 report, the OIG made
the following recommendation:

We recommend OCFO again notify DOL agencies of their requirements to
account for costs related to internal-use software and monitor to ensure they
properly account for these costs in accordance with Federal and departmental
requirements.

During FY 2006, the OCFO re-issued relevant guidance to the agencies and conducted
a meeting with the agencies. Although the OCFO had informally been communicating
with the agencies to monitor the implementation of this guidance, there was no
documentation to support this monitoring, and the OCFO did not maintain a listing of
internal use software projects in development. In addition, we noted documentation of
indirect costs had not improved and the OCFO had not developed an analysis to
support its position that the amount of indirect costs associated with the development of
internal-use software is not material to the financial statements. As such, in FY 2006,
we made the following additional recommendations:

We recommend the Chief Financial Officer:

1. Designate an official in the OCFO to be responsible for DOL’s internal-use
   software accounting and reporting
2. Develop and implement a quarterly reporting process for agencies to report
   the status and costs of software projects in development, and maintain a
   comprehensive listing of all software in development projects based on this
   quarterly reporting.
3. Develop and implement a review process to determine that the agency is
   reporting all costs that are required to be capitalized.
4. Develop and implement procedures to compare the internal-use software
   assets and amounts recorded in CATARS to the internal-use software assets
   and amounts reported by the agencies
5. Perform, document, and maintain an analysis of indirect costs associated with
   software in development to determine whether or not these costs are material.

In FY 2007, the OCFO took several corrective actions to address internal-use software,
including assigning an official in OCFO to monitor internal use software and
implementation of a quarterly certification process from the agencies. Therefore, the FY


Prepared by KPMG LLP                                                                         31
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
2005 recommendation and FY 2006 recommendation nos. 1 through 4 are considered
closed.

However, the OCFO has not yet performed an analysis of indirect costs associated with
internal-use software to determine whether or not these costs are material. Therefore,
FY 2006 recommendation no. 5 remains resolved and open, pending management’s
completion of an indirect cost analysis.

Management’s Response

Management concurs with the recommendation. The OCFO will prepare an analysis of
indirect cost associated with internal-use software by March 31, 2008, and will evaluate
the materiality of such costs in accordance with appropriate guidelines.

Auditors’ Conclusion

This recommendation is considered resolved and open, pending management’s
completion of an indirect cost analysis. FY 2008 audit procedures will determine
whether this recommendation has been adequately addressed and can be considered
closed.

12. Improper Source for Recording of Costs on National Training Center Contracts

The Office of Job Corps has several National Training Center (NTC) contracts with
various trade unions and other organizations to provide various training services.
These contracts are administered by the National Office of Job Corps. These
contractors draw down funds through the U.S. Department of Health and Human
Services’ Payment Management System (HHS/PMS) and submit monthly or quarterly
cost reports to the Office of Job Corps. Job Corps total expenses approximated $1
billion in 2007. The total value of Job Corps contracts that are administered using this
process total approximately $62 million.

DOL is not in compliance with SFFAS No. 1, Accounting for Selected Assets and
Liabilities relating to the recording of expenses and advances for these Job Corps
contracts. We noted that DOL records drawdowns by contractors as expenses in
general ledger account 6105, Current Operating Expense – Other, for costs related to
Job Corps’ NTC contracts. However, these drawdowns do not represent actual costs
(goods and services received) incurred by the contractor, but rather the amount that is
supposed to cover the contractor’s immediate cash needs (an advance). However, until
the contractor submits a cost report detailing its actual costs for the period, DOL does
not have any evidence to support the amount of costs incurred.

In our testwork over 59 FY 2007 Job Corps expenses, we noted 6 expenses where the
amounts recorded as the expense varied by the amounts reported on the contractors’
monthly cost reports by a total of $1,122,992. In one instance, we noted the

32                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
contractor’s cost report appeared to contain erroneous information, as it reported costs
for one month totaling approximately $11.8 million, while the total DOL budget was only
$5.6 million. However, based on further follow-up, we noted that subsequent cost
reports reported a corrected cumulative cost of $1.9 million.

As a result of these exceptions, DOL is misstating its costs and advances related to Job
Corps NTC contractor activity. Based on our testwork, the known overstatement of
expenses and corresponding understatement of advances is $1,122,992, with a likely
net overstatement of expenses and understatement of advances of $16,000,285. In
addition, without accurate contractors’ cost reports, DOL can not properly record or
report its costs.

DOL has not established a process for the recording of NTC contractor cost reports, but
instead, relies on the amount of the drawdowns to record the costs. DOL’s rationale is
that the contractors should only be drawing down what they have expended; therefore,
the drawdowns should equal the costs. Since cost reports are not being used to record
activity in DOL’s general ledger, no review process is in place to ensure contractors are
submitting accurate cost reports. Additionally, DOL does not have written policies and
procedures addressing the recording of NTC costs.

SFFAS No. 1, Accounting for Selected Assets and Liabilities, defines Advances as
“Cash outlays made by a federal entity to its employees, contractors, grantees, or
others to cover a part or all of the recipients’’ anticipated expenses or as advance
payment for the cost of goods and services the entity acquires. Examples include . . .
assets disbursed under a contract, grant, or cooperative agreement before services or
goods are provided by the contractor or grantee.”

Per GAO’s Standards, “Control activities occur at all levels and functions of the entity.
They include a wide range of diverse activities such as approvals, authorizations,
verifications, reconciliations, performance reviews, maintenance of security, and the
creation and maintenance of related records which provide evidence of execution of
these activities as well as appropriate documentation.”

Recommendations

We recommend that the Assistant Secretary for Administration and Management:

1. Develop and implement written policies and procedures to properly record NTC
   contractor activities in accordance with SFFAS No. 1, including identification of
   source documents necessary to support the recording of these activities.

2. Establish procedures to require the review of the contractor cost reports for accuracy
   and completeness prior to the recording of the associated costs into the general
   ledger, and to take corrective action when a contractor submits an inaccurate or
   incomplete cost report.

Prepared by KPMG LLP                                                                         33
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I

Management’s Response

We concur with the auditor’s recommendation, and plan to develop specific procedures
for recording NTC activity by April 30, 2008. The procedures will include provisions for
obtaining and retaining appropriate documentation to support recorded costs.

Auditors’ Conclusion

These recommendations are considered resolved and open.       FY 2008 audit
procedures will determine whether these recommendations have been adequately
addressed and can be considered closed.

13. Inaccurate Employee Accrued Leave Amounts

In FY 2006, we noted that certain accrued leave hours were not accurate, leading to
incorrect liability balances recorded in DOLAR$. As a result, we made the following
recommendations:

1. Investigate all 9 exceptions noted in our sample and correct the employee
   accrued leave balances as needed based on the results of this investigation.
2. Develop and implement procedures to periodically review the accrued leave
   detail to ensure that the hours are accurate and valid. These reviews should
   be documented, reviewed and approved by an appropriate supervisor, and
   maintained.
3. Investigate the accrued leave balances at August 31, 2006 for the former OIG
   personnel, determine the cause, and take appropriate corrective action to
   remove their balances and prevent future reoccurrences.

In following up on this prior year finding, we noted that employees identified by the OIG
in FY 2006 as having either resigned or transferred from DOL during FY 2006 continued
to have accrued leave balances as of September 30, 2007.

As a result of the exceptions, the accrued leave balances may be misstated. The
inclusion of OIG employees who resigned or transferred in the prior fiscal year
overstates the accrued leave balance as of September 30, 2007, by $32,956. The total
error due to retired or otherwise separated employees being included in the accrued
leave balance is not known. The cause of these errors appears to be a lack of
appropriate policies and procedures related to the removal of employees’ accrued leave
balances’ from the general ledger once an employee has retired or otherwise separated
from DOL.

OMB Circular No. 123, Management’s Responsibility for Internal Control, states,
“Application control should be designed to ensure that transactions are properly

34                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
authorized and processed accurately and that the data is valid and complete. Controls
should be established at an application’s interfaces to verify inputs and outputs, such as
edit checks. General and application control over information systems are interrelated
and both are needed to ensure complete and accurate information processing. Due to
the rapid changes in information technology, controls must also adjust to remain
effective.”

Per GAO’s Standards, “Internal control should generally be designed to assure that
ongoing monitoring occurs in the course of normal operations. It is performed
continually and is ingrained in the agency’s operations. It includes regular management
and supervisory activities, comparisons, reconciliations, and other actions people take
in performing their duties.”

Therefore, we consider FY 2006 recommendation no. 1 as closed, and we consider
recommendation nos. 2 and 3 as unresolved pending completion of a corrective action
plan with specified timeframes for implementation.

Management’s Response

Management’s preliminary analysis of this issue indicates that employees with a non-
active status (separated employees) can, in fact, have valid non-zero accrued leave
balances. For example, an outstanding indebtedness at the point of separation may
result in actions being taken by the Servicing HR Office to prevent a cash payout of the
accrued leave until the debt is paid; consequently imposing a freeze on the employee’s
leave balance.

To distinguish between valid and invalid cases, the OCFO will perform the following:

1. By March 31, 2008, develop a report to identify separated employees who continue
   to carry Annual Leave or Compensatory Leave balances.
2. On a bi-weekly basis, generate and distribute this report to all relevant Servicing HR
   Offices.
3. Obtain relevant feedback from, and follow up with, the Servicing HR Offices as to the
   leave balances identified, until the balance is fully resolved.

In addition, the OCFO will develop and implement procedures to verify that data sent
from the HR-Payroll System (PeoplePower) to DOLAR$ properly reflects the change in
the value of leave from one pay period to the next. This procedure will be implemented
by March 31, 2008, and exercised at least once per quarter, and will compare the two
most recent consecutive pay periods for a sample of Responsibility Center Codes
(RCCs). The results will be documented and signed by the verifier, and reviewed and
signed by the appropriate supervisor/manager.




Prepared by KPMG LLP                                                                         35
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I

Auditors’ Conclusion

These recommendations are considered resolved and open.         FY 2008 audit
procedures over management’s corrective action plan listed above will determine
whether these recommendations have been adequately addressed and can be
considered closed.

14. Lack of Adequate Monitoring of Child Agency Financial Data

ETA annually allocates approximately $170 million to four federal entities (U.S. Forest
Service, National Park Service, Bureau of Indian Affairs, and Bureau of Reclamation)
(i.e., the child entities) to operate 28 Job Corps Centers (Civilian Conservation Centers
(CCC)) throughout the country. In prior years, the child entities reported the proprietary
accounts and activities of these budget allocations in their consolidated financial
statements. Effective in FY 2007, DOL (i.e., the parent entity) is required by OMB
Circular No. A-136 to report in its consolidated financial statements both the budgetary
and proprietary accounts and activities related to these allocations.

In response to this new accounting requirement, during FY 2007, DOL performed the
following procedures over the activities of the child entities:

•    The Office of Fiscal Integrity (OFI) received monthly trial balances from child entities
     and recorded these balances into DOLAR$ for financial reporting purposes.
•    OFI performed analytical reviews of quarter to quarter expenses and reviewed for
     abnormal balance activities.
•    OFI reconciled child trial balance reporting between the SF-132 and SF-133 with the
     related trial balance.

In addition, Office of Job Corps program management officials receive quarterly cost
reports for each of the 28 CCCs operated by the child entities. These cost reports detail
the program expenditures by line item (e.g., salaries and utilities). This information is
obtained for program monitoring and budgeting purposes, and is maintained in a
separate database that does not feed into DOLAR$.

Although DOL obtained the summary level trial balances from the child entities and is
reporting this information in DOL’s financial statements, DOL had not implemented
sufficient monitoring controls to provide DOL management with assurance that the
information being reported by the child entities is accurate and complete. For example,
DOL had not established monitoring controls to ensure the operating effectiveness of
the child entities’ controls over FBwT and the other balance sheet accounts.
Additionally, no reconciliation was performed between the detailed cost reports
submitted by each of the CCCs to the aggregate trial balances submitted by each of the
child entities and reported in DOL’s financial statements.

36                                                                      Prepared by KPMG LLP
                                   for the U.S. Department of Labor—Office of Inspector General
                                                               Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I

The lack of effective monitoring controls over the child entities’ trial balances increased
the risk that amounts being reported in DOL’s financial statements may be misstated.
This situation occurred because DOL had not established adequate processes to
manage the child financial data being reported in the DOL financial statements
beginning in FY 2007. Additionally, the National Office of Job Corps did not provide
specific guidance to the regional offices of Job Corps to require a process be
implemented to monitor the costs being reported by the federally-operated CCCs. We
surveyed six Regional Offices and noted they were not consistently performing
monitoring procedures. Two of the Regional Offices indicated they did not perform any
formal monitoring procedures. One of these two Regional Offices indicated it was the
child entity’s responsibility to monitor these costs and when DOL has attempted to
obtain explanations for variances, the child entities told DOL they were not required to
provide explanations to DOL.

OMB Circular No. A-123, Management’s Responsibility for Internal Control, states that
“The agency head must establish controls that reasonably ensure that obligations and
costs are in compliance with applicable law, funds, property, and other assets are
safeguarded against waste, loss, unauthorized use, or misappropriation, and revenues
and expenditures applicable to agency operations are properly recorded and accounted
for to permit the preparation of accounts and reliable financial and statistical reports . . .”

Per GAO’s Standards, “Internal control should generally be designed to assure that
ongoing monitoring occurs in the course of normal operations. It is performed
continually and is ingrained in the agency’s operations. It includes regular management
and supervisory activities, comparisons, reconciliations, and other actions people take
in performing their duties.”

Recommendation

1. We recommend that the Chief Financial Officer and the Assistant Secretary for
   Administration and Management work together to develop procedures to
   consistently monitor the amounts being reported on the child entities’ trial balances.
   At a minimum, these procedures should include procedures to monitor the child
   entities’ controls over FBwT and the other significant balance sheet accounts and to
   perform quarterly comparisons of amounts being reported on the CCC cost reports
   to the amounts being reported in the child entities’ trial balances.

Management’s Response

We agree with the general recommendation made by the auditor, and plan to develop
and implement child agency monitoring procedures by April 30, 2008. The extent of
specific monitoring procedures will be subject to the provisions of interagency
agreements currently being negotiated with the child agencies, and on the outcome of

Prepared by KPMG LLP                                                                         37
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
certain initial procedures to be performed by the OCFO over the next few months.
These procedures potentially include:

1. Obtain and review each child agency’s annual audit report to determine if there are
   any significant deficiencies that may impact amounts reported to the DOL by the
   child agency;
2. Determine if independent auditors for the child agencies have reported additional
   deficiencies specific to the operation of the Job Corps program that would impact
   amounts reported to the DOL by the child agency;
3. Visit the child agencies’ finance centers to gain an understanding of existing financial
   systems and controls over financial reporting that are relevant to amounts reported
   for their Job Corps activities;
4. Visit four centers to evaluate existing financial procedures and controls over financial
   reporting;
5. Summarize each centers’ quarterly cost reports submitted to the Office of Job Corps,
   compare these totals to amounts reflected on the quarterly child agency trial
   balances, and reconcile significant differences; and
6. Review actual versus budgeted costs as reported on the quarterly cost reports for
   each center, and discuss significant variances with the respective Job Corps project
   managers.

However, we disagree with the internal control citations quoted by the auditor and find
that these do not apply to the Child/Parent relationship. The allocation transfers of
funds to the child agency do not cause child agencies’ operations to become subject to
the internal management controls of DOL, rather, the child agency is responsible for
establishing, maintaining, operating and reporting on internal controls over their own
internal operations. Accordingly, our final monitoring procedures will be designed in
recognition of the fact that the child agency’s transactions and balances are subject to
their own financial systems and internal controls.

Auditors’ Conclusion

This recommendation is considered resolved and open because management agreed
with the general recommendation and is developing procedures to address it. FY 2008
audit procedures over management’s corrective action plan listed above will determine
whether this recommendation has been adequately addressed and can be considered
closed.

15. Unemployment Compensation Advisory Council Not Established

In the FY 1997 audit (OIG Report No. 12-98-002-13-001), the OIG reported that the
Unemployment Compensation Advisory Council (UCAC) required by the Social Security
Act had not been reestablished. Section 908 of the Social Security Act makes no
provision for delaying the establishment of a new advisory council, and the issues for
which the UCAC is responsible are significant to the unemployment insurance program.

38                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I

In the FY 1997 report, the OIG made the following recommendation:

Recommendation

We recommend that the Assistant Secretary for Employment and Training ensure
that the Unemployment Compensation Advisory Council is reestablished as
required by Section 908 of the Social Security Act.

ETA does not believe that the UCAC is the most effective way to evaluate the
unemployment compensation program and has proposed a related amendment to the
Social Security Act in the Unemployment Compensation Program Integrity Act of 2006.
However, DOL is not currently in compliance with section 908 of the Social Security Act.

According to section 908 of the Social Security Act, starting in 1992 and “every 4th year
thereafter, the Secretary of Labor shall establish an advisory council to be known as the
Advisory Council on Unemployment Compensation.” The purpose of this council is to
“evaluate the unemployment compensation program, including the purpose, goals,
countercyclical effectiveness, coverage, benefit adequacy, trust fund solvency, funding
of State administrative costs, administrative efficiency, and any other aspects of the
program and to make recommendations for improvement.”

ETA has taken appropriate steps to resolve this issue, but Congress has not yet
approved DOL’s proposed amendment. As a result, we considered this issue resolved
and open until the legislation is amended.

Management’s Response

ETA agrees with the recommendation to continue pursuing amendment of the Social
Security Act with language similar to that found in the Unemployment Compensation
Program Integrity Act of 2006. A copy of the proposed language has been provided to
the auditors for their reference.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2008 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

16. Claimant Receiving Improper Benefit Payments

The Longshore and Harbor Workers' Compensation Act and its extensions,
administered by DOL's Employment Standards Administration, Office of Workers'
Compensation Programs, provide medical benefits, compensation for lost wages, and

Prepared by KPMG LLP                                                                         39
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
rehabilitation services to employees who are injured during the course of employment or
contract an occupational disease related to employment. Survivor benefits also are
provided if the work-related injury causes the employee's death.

We tested a sample of 45, FY 2007, benefit payments and noted one exception. We
noted that the Order and the initial letter to the claimant contained the correct bi-weekly
rate; however, the weekly compensation rate was erroneously being paid as the bi-
weekly compensation rate. Since this is a scheduled injury award, the error would
double the amount of time it would have taken to pay the award in full.
Improper compensation disbursements may lead to accuracy and existence issues
related to the compensation expense. The exception was caused when the Senior
Certifying Officer’s review of the procedures performed by the Data Entry Operator
(DEO) failed to identify the improper payment amount.

GAO’s Internal Control Management and Evaluation Tool (8/01), Page 40, states that
“…Key duties and responsibilities [should be] divided or segregated among different
people to reduce the risk of error or fraud. … This should include separating the
responsibilities for authorizing transactions, processing and recording them, reviewing
the transactions, and handling any related assets. No one individual should control all
key aspects of a transaction or event…”

GAO’s Standards, states that, “Within the agency, there are mechanisms in place to
monitor and review operations and programs….Control activities occur at all levels and
functions of the entity. They include a wide range of diverse activities, such as
approvals, authorizations, verifications, reconciliations, performance reviews,
maintenance of security, and the creation and maintenance of related records which
provide evidence of execution of these activities as well as appropriate documentation..
Control activities may be applied in a computerized information system environment or
through manual processes...Monitoring of internal control should include policies and
procedures for ensuring that the findings of audits and other reviews are promptly
resolved.”

Per Title 33 Navigation and Navigable Waters – Chapter 18, § 914. Payment of
compensation:
   (a) Manner of payment. Compensation under this Act shall be paid periodically,
       promptly, and directly to the person entitled thereto, without an award, except
       where liability to pay compensation is controverter by the employer.
   (f) Additional compensation for overdue installment payments payable under terms
       of award. If any compensation, payable under the terms of an award, is not paid
       within ten days after it becomes due, there shall be added to such unpaid
       compensation an amount equal to 20 per centum thereof, which shall be paid at
       the same time as, but in addition to, such compensation, unless review of the
       compensation order making such award is had as provided in (921of this title)
       and an order staying payment has been issued by the Board or court.


40                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
Recommendation

1. We recommend that the Assistant Secretary for Employment Standards continue to
   stress the importance of adhering to existing controls and policies.

Management’s Response

ESA concurs with the auditor’s recommendation and corrective action has already been
taken. ESA currently utilizes a template for calculating benefit payments which was not
available at the time the case cited by the auditors was established. We believe that the
template eliminates possible confusion between the weekly and bi-weekly rates, and
would preclude errors of the nature described by the auditors.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2008 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.

17. Error Noted in FECA Compensation Processing

The Federal Employees' Compensation Act (FECA) provides workers' compensation
coverage to three million Federal and Postal workers around the world for employment-
related injuries and occupational diseases. Benefits include wage replacement,
payment for medical care, and where necessary, medical and vocational rehabilitation
assistance in returning to work. DOL’s Division of Federal Employees' Compensation
adjudicates new claims for benefits and manages ongoing cases; pays medical
expenses and compensation benefits to injured workers and survivors; and helps
injured employees return to work when they are medically able to do so.

For the period October 1, 2006 through March 31, 2007, we tested 110 continuing
eligibility transactions and determined that the information recorded in the Integrated
Federal Employees’ Compensation System (iFECS) (i.e., number of dependents and
earnings information) agreed to the information on the CA-1032, Employment
Dependency and Benefit Verification Form or CA-12, Claim for Continuance of
Compensation Under the FECA Program, with one exception. We noted that one
claimant was paid at a compensation rate of 75% instead of 66⅔% for two years.
According to the most recent CA-1032, dated March 17, 2007, the claimant indicated no
spouse and no child dependents. This would result in benefits being calculated at
66⅔% as required by the FECA Procedure Manual Section 2-0901-5. Through further
investigation of the claim file, the claimant indicated her son graduated school on May
15, 2005 before which time he was properly claimed as a dependent as he attended a
college as a full time student as defined under §8101 of FECA. Upon her son’s
graduation, the claimant timely claimed no spouse and no dependents on her CA-1032s
consistently beginning in 2005 through the present. However, the case examiner (CE)
Prepared by KPMG LLP                                                                         41
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Exhibit I
did not adjust the payment calculation to reflect this change, and management review of
the CE’s review of the CA-1032 failed to identify this error, resulting in recurring
overpayments totaling approximately $7,400 during the period of May 15, 2005 through
May 12, 2007.

The exception occurred because the Senior CE did not adequately perform the
management review process and subsequent authorization function related to received
CA-1032s. Therefore, the iFECS payment information related to the case was not
updated.

The FECA Procedure Manual states the following:

•    2-0812-4 Placement and Monitoring of Claims and Periodic Roll
     b. Monitoring. All Cases on the periodic roll will be monitored closely to:

     (1) Verify continuing entitlement to compensation and the appropriate level of
     payments

•    2-0901-5 Compensation Rate

     5. Compensation Rate. This paragraph addresses the percentage of the pay rate to
     which a beneficiary is entitled. This percentage is known as the compensation rate.

        a. Disability Cases. The basic compensation rate is 66⅔ percent, which is
        increased to 75 percentage if there is at least one eligible dependent as defined
        in Section 5 U.S.C. §8110. Basic compensation for disability is obtained by
        multiplying the pay rate times the compensation rate.

•    2-0811-10 Dependents

     10. Dependents. Augmented compensation is paid to a claimant with at least one
     dependent, including a spouse. Where only one dependent is claimed, and that
     person is a student, a child whose marriage has ended, a child incapable of self-
     support, or a parent, the CE must ensure that entitlement exists.

Per FECA §8110:

     (3) an unmarried child while living with the employee or receiving regular
     contributions from the employee toward his support, and who is

        (A) under the age of 18

        (B) over 18 years of age and incapable of self-support because of physical or
        mental disability; and


42                                                                       Prepared by KPMG LLP
                                    for the U.S. Department of Labor—Office of Inspector General
                                                                Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                       Exhibit I
   (4) a parent, while wholly dependent on and supported by the employee.

   Notwithstanding paragraph (3) of this subsection, compensation payable for a child
   that would otherwise end because the child has reached 18 years of age shall
   continue if he is a student as defined by section 8101 of this title at the time he
   reaches 18 years of age for so long as he continues to be a student or until he
   marries.

Recommendation

1. We recommend that the Assistant Secretary for Employment Standards continue to
   stress the importance of the Senior CE review and payment certification policy.

Management’s Response

ESA concurs that the item cited by the auditors was an error, and corrective action has
already been taken. The compensation rate was corrected to 2/3 on 05/09/2007, and
an overpayment established. OWCP has taken steps to provide automated support and
tracking of CA-1032 processing, which we believe will achieve continuing improvements
in the efficacy of this benefit review process.

In addition, we note that the sample results identified in this finding (one error out of a
sample of 110) actually indicate a very strong system of internal controls. These
sample results project to approximately 3% (at the upper limit), which is considered in
all relevant audit guidance to be a very low level of risk. Accordingly, management
believes that the error identified is not an indication of systemic internal control
weaknesses.

Auditors’ Conclusion

This recommendation is considered resolved and open. FY 2008 audit procedures will
determine whether this recommendation has been adequately addressed and can be
considered closed.




Prepared by KPMG LLP                                                                         43
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
Management Advisory Comments Identified in an
Audit of the Consolidated Financial Statements
For the Year Ended September 30, 2007
Appendix A

Appendix A
                       ACRONYMS AND ABBREVIATIONS
ALC         Agency Location Code
APO         Accountable Property Officer
BPC         Benefit Payment Control
CAMO        Capitalized Asset Management Officer
CATARS      Capitalized Asset Tracking and Reporting System
CCC         Civilian Conservation Centers
CE          Claims Examiner
CFO         Chief Financial Officer
CFOA        Chief Financial Officers Act
CIO         Chief Information Officer
CIP         Construction in Progress
CY          Calendar Year
DCAA        District of Columbia Compensation Act
DEO         Data Entry Operator
DFEC        Division of Federal Employees Compensation
DFSS        Division of Financial and System Services
DLHWC       Division of Longshore and Harbor Workers’ Compensation
DLMS        Department of Labor Manual Series
DOL         U. S. Department of Labor
DOLAR$      Department of Labor Accounting and Related Systems
EBSS        Enterprise Business Support System
ESA         Employment Standards Administration
ETA         Employment and Training Administration
FAR         Federal Acquisition Regulations
FBwT        Fund Balance with Treasury
FECA        Federal Employees Compensation Act
FFMIA       Federal Financial Management Improvement Act
FMS         Financial Management Service
FPO         Federal Project Officer
FY          Fiscal Year
GAAP        Generally Accepted Accounting Principles
GAO         Government Accountability Office
GCS         Grants Closeout System
G/L         General Ledger
GPRA        Government Performance and Results Act
GTS         Grants Tracking System
GWA         Government Wide Account Statement
HHS/PMS     Health and Human Services/ Payment Management System
IAC         Internal Accounting Code
IG          Inspector General
iFECS       Integrated Federal Employees Compensation System
44                                                                     Prepared by KPMG LLP
                                  for the U.S. Department of Labor—Office of Inspector General
                                                              Report Number: 22-08-006-13-001
                                               Management Advisory Comments Identified in an
                                                Audit of the Consolidated Financial Statements
                                                        For the Year Ended September 30, 2007
                                                                                   Appendix A
ILAB        Bureau of International Labor Affairs
IMIS        Integrated Management Information System
IT          Information Technology
LHWCA       Longshore and Harbor Workers’ Compensation Act
MD&A        Management’s Discussion and Analysis
MSHA        Mine and Safety and Health Administration
NTC         National Training Center
OASAM       Office of the Assistant Secretary for Administration and Management
OCFO        Office of the Chief Financial Officer
OFI         Office of Fiscal Integrity
OIG         Office of Inspector General
OMB         Office of Management and Budget
OPS         Office of Procurement Services
OSHA        Occupational Safety and Health Administration
OWCP        Office of Workers' Compensation Programs
OWS         Office of Workforce Security
PAR         Performance and Accountability Report
PBGC        Pension Benefit Guaranty Corporation
PP&E        Property, Plant and Equipment
PRB         Procurement Review Board
RCC         Responsibility Center Code
RSI         Required Supplementary Information
RSSI        Required Supplementary Stewardship Information
SFFAS       Statement of Federal Financial Accounting Standards
SGL         Standard General Ledger
SNC         Statement of Net Cost
TFM         Treasury Financial Manual
UCAC        Unemployment Compensation Advisory Council
UDO         Undelivered Orders
UI          Unemployment Insurance
USSGL       U.S. Government Standard General Ledger
VETS        Veterans’ Employment and Training Service




Prepared by KPMG LLP                                                                       45
for the U.S. Department of Labor—Office of Inspector General
Report Number: 22-08-006-13-001
